Ls
l

@OCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
TOFIG KURBANOV,
Petitioner,

v.
UMG RECORDINGS, INC.; CAPITOL RECORDS, LLC;
WARNER BROS RECORDS INC.; ATLANTIC RECORDING
CORPORATION; ELEKTRA ENTERTAINMENT
GROUP INC.; FUELED BY RAMEN LLC; NONESUCH
RECORDS, INC.; SONY MUSIC ENTERTAINMENT;
SONY MUSIC ENTERTAINMENT US LATIN LLC;
ARISTA RECORDS LLC; LAFACE RECORDS LLC;
and ZOMBA RECORDING LLC,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8999 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

ere Keme 0. thao Ontiaebl. Chl

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40200
